App. 1
[J-92A-2018 AND J-92B-2018]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE,
DOUGHERTY, WECHT, MUNDY, JJ.
IN RE: ESTATE
:
OF MICHAEL J.
:
EASTERDAY, DECEASED :
APPEAL OF: MATTHEW:
:
M. EASTERDAY
:
:
:
:
:
:
:
:
:

No. 15 MAP 2018

:
IN RE: ESTATE
:
OF MICHAEL J.
EASTERDAY, DECEASED :
:
CROSS APPEAL OF:
:
COLLEEN A. EASTERDAY :
:
:
:
:
:
:
:
:

No. 16 MAP 2018

Appeal from the Order of
the Superior Court at Nos.
2911 & 2946 EDA 2016
and 2911 EDA 2016 dated
October 3, 2017 Affirming
the March 22, 2016 Order
of Montgomery County
Court of Common Pleas,
Orphans’ Court, entered
at No. 46-2014-x3615
ARGUED:
December 4, 2018
Appeal from the Order of
the Superior Court at No.
2946 EDA 2016 and 2911
EDA 2016 dated October
3, 2017 Affirming the
March 22, 2016 Order of
Montgomery County
Court of Common Pleas,
Orphans’ Court, entered
at No. 46-2014-x3615
ARGUED:
December 4, 2018

App. 2
OPINION
JUSTICE DONOHUE

DECIDED: June 18, 2019

In these cross-appeals, we consider two issues of
first impression. The first issue involves the impact
of a pending divorce action on a spouse’s entitlement
to life insurance benefits, and specifically the interplay between provisions of the Divorce Code, 23 Pa.C.S.
§§ 3301-3904, the Probate, Estates, and Fiduciaries
Code, 20 Pa.C.S. § 101-8815 (“PEF Code”), and Rule
of Civil Procedure 1920.42(b). The second issue asks
whether ERISA1 preempts a state law claim to enforce
a contractual waiver to receive pension benefits by the
named beneficiary. For the reasons detailed herein, we
affirm the decision of the Superior Court with regard
to both issues.
Michael J. Easterday (“Decedent”) and Colleen A.
Easterday (“Easterday”) married in 2004. Prior to marriage, Decedent worked for Federal Express and became a participant in a pension plan established by
this former employer. He also purchased a $250,000
life insurance policy. Decedent designated Easterday
the beneficiary of both during their marriage. The parties separated on July 12, 2013. On August 13, 2013,
Easterday filed for a divorce in Lancaster County under section 3301(c) of the Divorce Code, which provides
for a divorce by mutual consent of the parties. She and
Decedent subsequently settled their economic claims
in a property settlement agreement (“PSA”) executed
Employee Retirement Income Security Act of 1974, 29
U.S.C. § 1001-1461.
1

App. 3
on December 5, 2013. Critical to our inquiry here, the
PSA included the following provision:
Husband and Wife shall each retain 100% of
their respective stocks, pensions, retirement
benefits, profit sharing plans, deferred compensation plans, etc. and shall execute whatever documents necessary to effectuate this
agreement.
Property Settlement Agreement, 12/5/2013, ¶ 11. The
PSA further provided that its terms were to remain in
effect unless the parties modified or terminated the
agreement in writing.2 Id. ¶ 14.
Section 3301(c), permits the entry of a divorce
decree where three conditions are met: at least ninety
days have elapsed since the filing of the divorce complaint; the parties allege that their marriage is irretrievably broken; and the parties file affidavits consenting
to the divorce (hereinafter “affidavits of consent”). See
23 Pa.C.S. § 3301(c). Pursuant to Rule of Civil Procedure 1920.42(b)(2), these affidavits of consent must be
filed within thirty days of execution in order to be
valid. Pa.R.C.P. 1920.42(b)(2).
Easterday’s attorney prepared the affidavits of
consent for both parties to sign.3Decedent signed his
affidavit on November 30, 2013 and returned it to
Easterday. Easterday held Decedent’s affidavit until
mid-January, at which time she executed her affidavit
Decedent was already receiving his pension benefits at the
time the parties executed the PSA.
3
Decedent was unrepresented in the divorce proceedings.
2

App. 4
and returned them both to her attorney. On January
14, 2014, Easterday’s counsel sent the affidavits to the
prothonotary. Shortly thereafter, the prothonotary returned Decedent’s affidavit of consent to Easterday’s
counsel, explaining that it was invalid because it was
not filed within thirty days of the date of execution. In
a letter dated February 6, 2014, Easterday’s counsel
asked Decedent to execute another affidavit of consent
and return it for filing.
Decedent did not return a signed affidavit before
he died, intestate, on September 21, 2014. Three days
later, Easterday withdrew the divorce action. On October 4, 2014, Easterday applied for the proceeds of Decedent’s $250,000 life insurance policy, in which she
was named the beneficiary, and in December of the same
year, she began to receive Decedent’s pension benefits.
In the interim, on November 17, 2014, Decedent’s
son and executor of his estate, Matthew Easterday,
filed a petition in orphans’ court to compel Easterday
to turn over the life insurance proceeds and all pension
benefits. It was the Estate’s position that the designation of Easterday as life insurance beneficiary was nullified pursuant to section 6111.2 of the PEF Code,
which provides that where a spouse is named as the
beneficiary and the policy holder dies during the
course of divorce proceedings, the designation of the
spouse is ineffective if grounds for divorce have been
established. See 20 Pa.C.S. § 6111.2.4 With regard to
4

Section 6111.2 of the PEF Code provides:
§ 6111.2. Effect of divorce or pending divorce on designation of beneficiaries

App. 5
the pension benefits, the Estate argued that Easterday
waived her right thereto in the parties’ PSA.

(a) Applicability. -- This section is applicable if an individual:
(1) is domiciled in this Commonwealth;
(2) designates the individual’s spouse as beneficiary of the individual’s life insurance policy, annuity contract, pension or profit-sharing plan or
other contractual arrangement providing for payments to the spouse; and
(3) either:
(i) at the time of the individual’s death is
divorced from the spouse; or
(ii) dies during the course of divorce proceedings, no decree of divorce has been entered pursuant to 23 Pa.C.S. § 3323 (relating
to decree of court) and grounds have been
established as provided in 23 Pa.C.S.
§ 3323(g).
(b) General rule. -- Any designation described in subsection (a)(2) in favor of the individual’s spouse or former spouse that was revocable by the individual at the
individual’s death shall become ineffective for all purposes and shall be construed as if the spouse or former
spouse had predeceased the individual, unless it appears the designation was intended to survive the divorce based on:
(1) the wording of the designation;
(2) a court order;
(3) a written contract between the individual
and the spouse or former spouse; or
(4) a designation of a former spouse as a beneficiary after the divorce decree has been issued.
20 Pa.C.S. § 6111.2 (a), (b) (emphasis added).

App. 6
In response, Easterday claimed that her waiver in
the PSA to the receipt of Decedent’s pension benefits
was not valid because Decedent never took any steps
to remove her as the named beneficiary. She also argued that because Decedent did not file a valid affidavit of consent, section 6111.2 of the PEF Code did not
divest her of her rights as a surviving spouse. Easterday argued that Decedent did not take either of these
actions because they were in the midst of reconciling
at the time of his death.5
After a hearing, the orphans’ court found that section 6111.2 was not implicated because Easterday withdrew the divorce complaint after Decedent’s death,
thereby nullifying the only basis for the matter to proceed under the Divorce Code. Orphans’ Court Opinion,
3/22/2016, at 5-6. The orphans’ court relied on Tosi v.
Kizis, 85 A.3d 585 (Pa. Super. 2014). In that case, the
Superior Court ruled that section 3323(d.1) of the Divorce Code (which provides that parties’ economic
rights shall be determined under the Divorce Code
where a party to a divorce action dies before the divorce decree is issued but after grounds for divorce
have been established) is not mandatory in its application. As such, it concluded that the surviving spouse
may still elect to discontinue the action, as provided by
Rule of Civil Procedure 229, and proceed under the
To support this claim, Easterday offered into evidence copies of text messages, emails, and other correspondence between
Decedent and Easterday which, in her view, evidenced Decedent’s
desire that they reconcile and that she receive his pension and life
insurance proceeds.
5

App. 7
PEF Code. See Tosi, 85 A.3d at 588-89. It therefore
refused to apply section 6111.2. Nonetheless, the orphans’ court determined that the parties’ PSA controlled the disposition of the pension and insurance
proceeds. The trial court reasoned that because Easterday waived her right to Decedent’s pension benefits
in the PSA, she was not entitled to them. Orphans’
Court Opinion, 3/22/2016, at 7-8. It further concluded
that because the PSA was silent as to Decedent’s insurance policy and Decedent never removed Easterday
as the named beneficiary thereto, Easterday was entitled to those proceeds. Id. Both parties appealed.
The Estate challenged the orphans’ court’s reliance on Tosi and its resultant conclusion that section
6111.2 of the PEF Code did not apply in the present
case. The Superior Court agreed, explaining that after
Tosi was decided, this Court promulgated Rule of Civil
Procedure 1920.17(d) and specifically disapproved of
Tosi. Rule 1920.17(d) provides that when a party dies
during the pendency of a divorce action and grounds
for divorce have been established but no decree has issued, “neither the complaint nor economic claims can
be withdrawn except by the consent of the surviving
spouse and the personal representative of the decedent. If there is no agreement, the economic claims
shall be determined pursuant to the Divorce Code.”
Pa.R.C.P. No. 1920.17(d). The note to this rule expressly addresses the Tosi decision, providing that “[t]o
the extent that Tosi [ ] holds that 23 Pa.C.S. § 3323(d.1)
does not prevent the plaintiff in a divorce action from
discontinuing the divorce action following the death of

App. 8
the defendant after grounds for divorce have been established, it is superseded.” Pa.R.C.P. 1920.17(d), Note.
The Superior Court acknowledged that Rule
1920.17 and the Note thereto conclusively establish
this Court’s “disapproval of the broad effect of Tosi,
which effectively gave any surviving spouse the unilateral power to determine whether the assets . . . would
be distributed under the Divorce Code or the PEF
Code[.]” In re Estate of Easterday, 171 A.3d 911, 915
(Pa. Super. 2017). Although this Court addressed only
section 3323(d.1) of the Divorce Code in the Note to
Rule 1920.17(d), the Superior Court concluded that our
adoption of this rule signaled a “clear indication that
[this] Court would look with similar disfavor” on an interpretation of section 6111.2 of the PEF Code that
would allow a surviving spouse to unilaterally determine the manner of asset distribution. Id.
With the orphans’ court’s reliance on Tosi conclusively rejected, the Superior Court considered whether
section 6111.2 invalidates Easterday’s designation as
beneficiary of the insurance policy. It decided that the
answer turned on whether grounds for divorce had
been established, as section 6111.2 only applies under
such circumstances. Id. at 915-16.
Section 3323(g) of the Divorce Code defines
“grounds for divorce.” Relevant to the present dispute,
it provides that grounds for a divorce under section
3301(c) are established where both parties have filed
their affidavits of consent. 23 Pa.C.S. § 3323(g)(2). The
Superior Court then recognized that Rule 1920.42(b)

App. 9
provides that for a divorce under section 3301(c), affidavits of consent must be filed (1) at least ninety days
after the filing and service of the divorce complaint and
(2) within thirty days of execution of their execution.
Easterday, 171 A.3d at 916. Because Decedent’s affidavit was executed more than thirty days after its execution, Easterday argued that it was invalid pursuant to
Rule 1920.42(b)(2). Id. Consequently, she contended,
grounds for divorce per section 3323(g) were never established and section 6111.2 of the PEF Code could not
apply. Id.
The Estate, conversely, argued that compliance
with Rule 1920.42(b) is necessary only for the issuance
of a divorce decree by mutual consent. Id. Because
neither section 3323(g) nor section 6111.2 of the PEF
Code relate to the issuance of a divorce decree, the Estate claimed, the “time limitations” contained in Rule
1920.42(b) do not apply for their purposes (i.e., the
manner of distribution of assets when a party to a divorce dies prior to the entry of a divorce decree). Id.
Even if the court were to find that the thirty-day requirement applied, the Estate argued that strict compliance therewith should not be required. Id. Claiming
that in another instance, the Superior Court found untimely affidavits of consent sufficient to establish
grounds for divorce under section 3323(g) for purposes
of a request for bifurcation, the Estate urged the Superior Court to likewise find that the technical violation
of this procedural rule did not invalidate Decedent’s
affidavit of consent for purposes of determining the

App. 10
applicability of section 6111.2 of the PEF Code.6 Id.
(citing Bonawits v. Bonawits, 907 A.2d 611 (Pa. Super.
2006)).
The Superior Court disagreed with the Estate. It
began from the premise that because the legislature
has declared the protection and preservation of the
family unit is to be of “paramount public concern,” the
General Assembly prohibited the possibility of a default judgment in the context of divorce. Id. In keeping
with this “seriousness with which the dissolution of
marriage is to be treated,” the Superior Court reasoned
that Rule 1920.42(b)(2)’s requirement that affidavits of
consent be filed within thirty days of execution ensures
that the parties demonstrate a present intent to be divorced. Id. at 917. For this reason, the court concluded,
stale affidavits are not accepted for the entry of a decree. Id.
The Superior Court further concluded that where
a death occurs during a divorce action, the question of
whether grounds for divorce have been established is
vital because it determines whether the parties’ economic claims will proceed under the Divorce Code or
the PEF Code.7 In light of the “added significance” that

6
The Estate further argued that Easterday was judicially estopped from claiming that Decedent’s affidavit of consent was invalid because she relied upon its validity when she file a praecipe
to transmit the record. Easterday, 171 A.3d at 916. The Estate
does not advance this argument in its appeal before this Court.
7
This is because section 3323(d.1) effectively treats grounds
for divorce as the equivalent of a divorce decree where the death

App. 11
the establishment of grounds for divorce acquires in
the case of the death of a party, “it is reasonable to conclude that the legislature intended to require compliance
with the same procedural requirements precedent to the
entry of a divorce decree. Consequently, . . . a ‘stale’ affidavit of consent is insufficient to establish grounds
under section 3323(g).” Id.
The Superior Court was not swayed by the Estate’s
claim that strict compliance with Rule 1920.42(b)(2)’s
thirty-day requirement should not be required in situations such as this, where establishment of grounds for
divorce is necessary for a purpose other than the entry
of a divorce decree. Conceding that this argument
might be persuasive under other facts, the Superior
Court found that because Decedent never remedied his
defective affidavit, and in fact, never filed an affidavit
before his death, “waiving this requirement would not
effectuate justice[.]” Id. It noted that as Decedent did
not file an affidavit of consent in the months between
the time of Easterday’s counsel’s letter in February of
2014 and his death in September of the same year, “it
is far from clear that, at the time of his death, Decedent
possessed a present intent to divorce, such that we
should excuse the staleness of his affidavit of consent
and conclude that grounds were established.” Id. at
918. This determination foreclosed the applicability of
section 6111.2, and so the Superior Court found that

of a party renders the entry of such decree impossible. Easterday,
171 A.3d at 917.

App. 12
the insurance proceeds were properly awarded to Easterday, as she was the named beneficiary thereof. Id.
Having resolved the Estate’s claim, the Superior
Court turned to the issue raised in Easterday’s crossappeal: whether the orphans’ court erred in finding
that the Estate is entitled to the pension benefits.
Finding no error in the orphans’ court’s determination,
the Superior Court acknowledged that property settlement agreements are subject to the law governing contracts; must be interpreted as written; and only where
a term is ambiguous may a court consider extrinsic evidence to aid in resolving the ambiguity. Id. at 919 (citing Mazurek v. Russell, 96 A.3d 372, 378 (Pa. Super.
2014)). The court found the PSA’s waiver of pension
benefits unambiguous and valid. Id.
The Superior Court rejected Easterday’s claim
that ERISA preempts state contract law in so far as it
relates to Decedent’s pension benefits. Easterday relied on Egelhoff v. Egelhoff ex rel. Breiner, 532 U.S. 141
(2001), in which the United States Supreme Court
found preempted a state statute that provided for the
automatic revocation, upon divorce, of the designation
of a spouse as beneficiary. The Superior Court explained that the paramount goal underlying ERISA is
the uniform and efficient administration of benefit
plans, and for that reason state statutes that interfere
with this goal are preempted. Easterday, 171 A.2d at
920. However, the Superior Court also recognized that
subsequent cases have established that preemption is
limited to furthering this goal (i.e., streamlining the
administration of benefit plans), such that preemption

App. 13
does not extend to state law contract claims to recover
benefits after their payment to the named beneficiary
by a plan administrator. Id. (discussing Kennedy v.
Plan Administrator for DuPont Savings & Investment
Plan, 555 U.S. 285 (2009), and Estate of Kensinger v.
URL Pharma, 674 F.3d 131 (3d. Cir. 2012)).
Both parties filed petitions for allowance of appeal.
We granted review of the following issue presented by
the Estate:
Did the Superior Court decision deviate from
well-established principles of statutory construction when the lower court held that the
General Assembly intended to incorporate the
thirty-day procedural requirement of Pa.R.C.P.
1920.42, with regard to the filing of affidavits
of consent in divorce actions, into 20 Pa.C.S.
§ 6111.2, where the language of section is
clear and unambiguous and does not contain
such time limitation?
Supreme Court Order, 4/17/2018. On cross-appeal, we
granted review of the following issue presented by
Easterday:
Under an employee benefit plan governed by
[ERISA], after a plan administrator distributes funds to the named beneficiary in accordance with the plan documents, can an estate
attempt to recover those funds directly from
the beneficiary pursuant to a contractual
waiver of those benefits contained in a property settlement agreement?
Id.

App. 14
We first turn our attention to the Estate’s appeal.
It contends that the Superior Court erred by relying
upon the rule-based timing requirements for the filing
of affidavits of consent when deciding that section
6111.2 of the PEF Code did not apply to invalidate Decedent’s designation of Easterday as the beneficiary of
his life insurance policy. We begin with a review of the
relevant statutory provisions and related rules.
On April 3, 1980, the General Assembly enacted
the Divorce Code, which included, for the first time,
provisions permitting the entry of no-fault divorces.
Section 3301(c)(1) of the Divorce Code states:
§ 3301. Grounds for divorce
(c)

Mutual consent. -(1) The court may grant a divorce where
it is alleged that the marriage is irretrievably broken and [ninety] days have elapsed
from the date of commencement of an action under this part and an affidavit has
been filed by each of the parties evidencing that each of the parties consents to
the divorce.

23 Pa.C.S. § 3301(c)(1). On July 1, 1980, this Court
promulgated new procedural rules to implement the
Divorce Code. Included in these new rules was Rule
1920.42, which authorizes the trial court to enter a divorce decree pursuant to sections 3301(c) and (d)(1) of
the Divorce Code without need for further proceedings
when certain filing and notice requirements have been
met by the parties. See Pa.R.C.P. 1920.42. Subsection

App. 15
(b)(2) of that rule provides that the affidavit referenced
in section 3301(c) “must have been executed . . . within
thirty days or more after both filing and service of the
complaint.” Pa.R.C.P. 1920.42(b)(2).
In 2004, the General Assembly enacted section
3323 of the Divorce Code specifically addressing the
scenario when one spouse dies during the course of divorce proceedings. Section 3323 provides, in relevant
part, as follows:
(d.1) Death of a party. -- in the event one
party dies during the course of divorce proceedings, no decree of divorce has been entered and grounds have been established as
provided in subsection (g), the parties’ economic rights and obligations arising under
the marriage shall be determined under this
part rather than under [the PEF Code].
*

*

*

(g) Grounds established. -- For purposes
of subsections (c.1) and (d.1), grounds are established as follows:
*

*

*

(2) In the case of an action for divorce
under section 3301(c), both parties have
filed affidavits of consent or, if the presumption in section 3301(c)(2) is established,
one party has filed an affidavit of consent.
23 Pa.C.S. § 3323(d.1),(g)(2).8
Prior to 2004, it had long been the law of this Commonwealth that if a party dies while a divorce action was pending, the
8

App. 16
As discussed, Decedent’s affidavit of consent was
executed more than thirty days prior to the date it was
submitted for filing (and rejected). The Superior Court
ruled that because the local Prothonotary rejected the
filing of Decedent’s affidavit of consent due to a lack of
compliance with Rule 1920.42(b)(2)’s thirty-day validity requirement, grounds for divorce had not been established in accordance with section 3323(g)(2) of the
Divorce Code at the time of Decedent’s death. Because
the Decedent’s affidavit of consent was not filed, section 6111.2 of the PEF Code did not invalidate Easterday’s designation as the beneficiary of Decedent’s life
insurance policy.
The Estate builds its argument on the principle
that where the terms of a statute are clear and free
from ambiguity, “the letter of it is not to be disregarded
under the pretext of pursuing its spirit[,]” and that
courts may not add language to a statute “which the
Legislature may well have omitted by design and
divorce abated and the economic claims that would have been adjudicated under the Divorce Code were subject to PEF Code and
the laws governing probate and intestate succession. See Drumheller v. Marcello, 532 A.2d 807, 808 (Pa. 1987) (“An action in divorce is personal to the parties and, upon the death of either
party, the action necessarily dies.”); Haviland v. Haviland, 481
A.2d 1355, 1356-57 (Pa. Super. 1984) (holding rule that divorce
action abated upon death of husband was not changed by divorce
code). This created the possibility that although spouses may be
in the process of dividing their marital estate, a surviving spouse
could receive an unintended windfall (to the detriment of the deceased spouse’s estate and natural objects of his or her bounty) by
not only laying claim to all marital property but also exercising
the right to the elective share of one-third of decedent’s non-marital property. See 20 Pa.C.S. § 2203.

App. 17
intent[.]” Estate’s Brief at 14 (citing 1 Pa.C.S. § 1921(b)
and Pennsylvania Human Relations Comm’n v. Mars
Cmty. Boys Baseball Ass’n, 410 A.2d 1246 (Pa. 1980)).
The Estate argues that by its clear and unambiguous
terms, section 3323(g) contains no requirement that an
affidavit of consent must be filed within thirty days of
execution in order to establish grounds for divorce under section 3301(c); as such, it concludes that the Superior Court erred by reading that requirement into
Rule 1920.42(b)(2). In other words, the Estate claims
that the Superior Court, by requiring compliance with
Rule 1920.42(b)(2), impermissibly altered section
3323(g)(2)’s clear definition of grounds for a divorce under section 3301(c). Estate’s Brief at 14-16. If the General Assembly had intended grounds for a section
3301(c) divorce as defined in section 3323(g)(2) to include Rule 1920.42(b)(2)’s requirement, the Estate
argues, the General Assembly explicitly would have included the same a requirement in the text of section
3323(g)(2) or, alternatively, employed language indicating that the affidavits must be filed “in accordance
with law” or “as provided by rule.” Id. at 18-19. Echoing
the argument it made before the Superior Court, the
Estate claims that while the Rules of Civil Procedure
applicable to divorce actions require that affidavits of
consent be filed within thirty days of execution for the
issuance of a divorce decree without a hearing, the
Rules do not similarly impose any timing requirement
on affidavits for the purpose of establishing grounds
for divorce. Id. at 18.

App. 18
Easterday responds that there was no error in the
Superior Court’s analysis resulting in its conclusion
that section 6111.2 of the PEF Code does not apply in
this case, as the relevant statutory provisions and Rule
1920.42(b)(2) are clear. Easterday’s Brief at 19-20.
As discussed above, section 3323(d.1) and (g) were
enacted specifically to alleviate an inequity that could
arise when a party died during the course of a divorce
action. In practical effect, sections 3323(d.1) and (g) ensure that where the parties have met the necessary requirements for the issuance of a divorce decree prior to
a party’s death, the death will not remove the adjudication of economic claims from the divorce action. For
that reason, it is unsurprising that the requirements
of section 3323(g)(2) are identical to the requirements
for a divorce pursuant to section 3301(c), which defines
the criteria for a divorce upon the mutual consent of
the parties. Section 3323(g)(2) is, in essence, no more
than a restatement of section 3301(c), as both require
that the parties have filed affidavits of consent.
Marriage and divorce are traditionally regulated
by the states. 27A C.J.S. Divorce § 22 (2019). Accordingly, the various state legislatures have the authority
to prescribe the available grounds for divorce and are
cabined only by constitutional limitations. Id. Our
General Assembly exercised its authority in this regard when it enacted the Divorce Code in 1980. This
sweeping reform brought no-fault divorce to the Commonwealth, which for the first time allowed for dissolution of a marriage “in a manner that recognizes the
prior existence of the family as both an economic and

App. 19
a social unit, and that emphasizes the future welfare
of each member of the family, instead of in a manner
that identifies and punishes guilty parties.” Gordon v.
Gordon, 439 A.2d 683, 693 (Pa. Super. 1981). In furtherance of that goal, the General Assembly enacted
section 3301(c), a provision that allowed parties to obtain a divorce by mutual consent where the following
minimal criteria are met: (1) there is an allegation that
the marriage is irretrievably broken and (2) the parties
file of [sic] affidavits of consent no sooner than ninety
days after the filing of the complaint. 23 Pa.C.S. § 3301(c).
With the enactment of a new statutory scheme
like the Divorce Code, a need arises for procedural
rules to implement the new laws. This Court has exclusive authority to promulgate rules that govern the
procedure in the courts of this Commonwealth. Payne
v. Commonwealth Dep’t of Corr., 871 A.2d 795, 800-01
(Pa. 2005). This authority emanates from Article 5,
Section 10 of our Constitution, which provides that
[t]he Supreme Court shall have the power
to prescribe general rules governing practice, procedure and the conduct of all
courts, justices of the peace and all officers
serving process or enforcing orders, judgments or decrees of any court or justice of the
peace, including the power to provide for assignment and reassignment of classes of actions or classes of appeals among the several
courts as the needs of justice shall require,
. . . and the administration of all courts and
supervision of all officers of the Judicial
Branch. . . . All laws shall be suspended to the

App. 20
extent that they are inconsistent with rules
prescribed under these provisions.
Pa. Const. art. V, § 10 (emphasis added). It is thus clear
that while the General Assembly alone has the authority to create laws, this Court alone has the authority to
prescribe the procedures by which those laws are enforced though the judiciary. As we have previously emphasized, the General Assembly creates and defines
rights, and this Court then establishes the mechanisms by which those rights are implemented and vindicated. Payne, 871 A.2d at 801.
When the General Assembly enacted a new Divorce Code in 1980, we exercised our rulemaking authority, drafting a new set of rules to allow for the
implementation of the Divorce Code’s provisions.
Jakstys v. Jakstys, 474 A.2d 45, 48 (Pa. Super. 1984);
see also Rules of Civil Procedure, Preface to Rules
1920.1-1920.92, Explanatory Cmt. We crafted the
terms of this rule to further the General Assembly’s
laudable goal of providing parties that mutually consent to a divorce with a “detour around the . . . delay,
conflict, discord, and mounting legal fees” that can often accompany proceedings in an adversarial judicial
system. Perlberger v. Perlberger, 626 A.2d 1186, 1195
(Pa. Super. 1993).9 Among these new rules was Rule
1920.42(b)(2), providing that affidavits of consent must
The Estate does not challenge our authority to enact Rule
1920.42(b), nor does it challenge the content thereof as an improper exercise of this Court’s authority to promulgate procedural
rules. As set forth above, the Estate challenges only the Superior
Court’s application of the Rule in its particular circumstances.
9

App. 21
be filed within thirty days of execution in order to trigger the procedure by which the court would enter a divorce decree by mutual consent without a hearing or
further proceedings. See Rueckert v. Rueckert, 20 Pa. D.
& C.3d 191, 193 (Pa. Com. Pl. 1981) (explaining that
consent affidavits required for divorce “are limited by
Pa.R.C.P. 1920.42 in that they must have been executed within [thirty] days of their filing”).10 By requiring that an affidavit of consent be executed within
thirty days of its filing, Rule 1920.42(b)(2) provides, in
essence, a “validity requirement” – ensuring that the
affiants’ acknowledgement of consent to divorce reflect
their current intentions.
In the decades since our promulgation of Rule
1920.42(b), the General Assembly has amended various provisions of the Divorce Code on multiple occasions, but at no time has it amended any provision in
a manner that would either eliminate or in any respect
alter this Court’s inclusion of a timing requirement for
the signing of an affidavit of consent (i.e., within thirty
days of filing) to effectuate a no-fault divorce under section 3301(c). The Superior Court has ruled on multiple
occasions that “[t]he procedural requirements imposed
by the Rules of Civil Procedure must be satisfied in order to endow the court with the authority to enter the
At the time of its initial enactment in 1980, the thirty-day
filing requirement for an affidavit of consent to be valid was found
in subsection (a)(2)(ii) of the Rule. See 10 Pa. Bul. 2967, 2969 (July
12, 1980). In 1983, the substance of the Rule was reorganized and
the thirty-day validity requirement was recast into subsection
(b)(2), where it has remained. See 13 Pa. Bul. 677, 679 (Feb. 12,
1983).
10

App. 22
decree in divorce.” Lazaric v. Lazaric, 818 A.2d 523, 525
(Pa. Super. 2003); Creach v. Creach, 522 A.2d 1133,
1136 (Pa. Super. 1987). We presume that when enacting legislation, the General Assembly is aware of the
existing law. Commonwealth v. Ramos, 83 A.3d 86, 91
(Pa. 2013); White Deer Twp. v. Napp, 985 A.2d 745, 762
(Pa. 2009); Commonwealth v. McClintic, 909 A.2d 1241,
1251-52 (Pa. 2006); Knox v. Bd. of Sch. Dir. of Susquenita Sch. Dist., 888 A.2d 640, 652 (Pa. 2005). Thus, here
we presume that the General Assembly was aware of
Rule 1920.42(b)’s thirty-day validity requirement
when it enacted section 3323(g)(2) in 2004 requiring
the filing of affidavits of consent to establish grounds
for a mutual consent divorce. At the time of section
3323(g)(2)’s enactment, Rule 1920.42(b)(2)’s validity
requirement had been in effect for nearly twenty-five
years. Section 3323(g)(2) is substantively identical
to section 3301(c), with only minor discrepancies in
phrasing, and, as discussed above, the aim of section
3323(g)(2) is virtually identical to the aim of section
3301(c) – to ascertain the certainty of the parties’ present intent to divorce at the time of the death of a
spouse – as reflected by the fact that both spouses have
executed affidavits of consent within thirty days of
their filing.
Thus, it is significant, and in fact dispositive here,
that when enacting section 3323(g)(2), the General
Assembly offered no indication that it intended to
eliminate or alter Rule 1920.42(b)(2)’s thirty-day validity requirement with respect to application of section
3323(d.1)’s instructions when a spouse dies during the

App. 23
course of divorce proceedings. The General Assembly
included no language in section 3323(g)(2) to signal
an end to the necessity of compliance with Rule
1920.42(b)(2), clearly reflecting the General Assembly’s intent that for purposes of application of section
3323(d.1) upon the death of a spouse, the decedent’s
affidavit of consent reflected a present consent to divorce at the time of his or her death. Section 3323(g)(2)
merely provides that grounds for divorce are established when affidavits of consent are “filed,” without
any suggestion that the existing procedural rules for
such filings were to be eliminated or altered in any respect. Rule 1920.42(b)(2)’s validity requirement is
equally important to the granting of a section 3301(c)
mutual consent divorce and to the determination of economic rights and obligations under section 3323(d.1)
when a spouse dies during the course of divorce proceedings, as both circumstances require the filing of affidavits of consent reflecting the present intentions of
the parties to divorce. In this regard, we further note
that the General Assembly has not effectuated any
amendment to section 3323(g)(2) since its enactment
fifteen years ago.
Accordingly, we find no merit in the Estate’s contention that the Superior Court “read into” section
3323(g)(2) a timing requirement that the General Assembly did not intend. Rather, the Superior Court
merely applied section 3323(g)(2) in accordance with
its express terms and our accompanying long-standing
procedural rule. In this case, the lack of compliance
with section 3323(g)(2) is clear, as no affidavit of

App. 24
consent for Decedent was ever filed with the lower
court. The Prothonotary, upon receipt of an affidavit of
consent signed by Decedent, refused to file it and instead, without objection by either party, returned it to
Easterday’s counsel based upon its failure to comply
with Rule 1920.42(b)(2)’s thirty-day requirement. As
such, grounds for divorce were not established prior to
Decedent’s death and thus, section 6111.2 of the PEF
Code did not operate to revoke Easterday’s designation
at [sic] the beneficiary of Decedent’s life insurance policy.
We now turn to Easterday’s cross-appeal. As discussed, the PSA provided, inter alia, that Easterday
would waive her right to participate in Decedent’s pension benefits. We consider whether the Estate’s action
to recover the pension benefits paid to Easterday is
preempted by ERISA. Easterday argues that ERISA
must preempt enforcement of the PSA through the application of state contract law. In her view, to find otherwise would conflict with the underlying intent of
ERISA; namely, to ensure that a surviving spouse receive the financial security that he or she was guaranteed by the designation as beneficiary. Easterday’s
Brief at 29; Easterday’s Second Brief at 19-20. Citing
In re Estate of Paul J. Sauers, 32 A.3d 1241 (Pa. 2011),
Easterday points out that this Court declared statutes
that removed ex-spouses as beneficiaries of ERISAgoverned plans to be preempted by the federal law.
Easterday’s Brief at 27. She argues, without much

App. 25
development, that it “logically follows” that state contract law is preempted as well. Id.11
The Estate responds that preemption is limited to
laws that conflict with ERISA’s control over employee
benefit plans, and that a waiver of benefits made in a
private agreement in no way conflicts with the administration of such plans. Estate’s Second Brief at 12-13.
The Estate draws our attention to the Third Circuit’s
decision in Estate of Kensinger, which concluded that
such a waiver may be made in a contract and that
preemption is not implicated with the application of
state contract law. Id. at 13, 16-17.
ERISA protects against “the mismanagement of
funds accumulated to finance employee benefits and
the failure to pay employees benefits from accumulated funds.” Gobeille v. Liberty Mut. Ins. Co., 136 S. Ct.
936, 946 (2016). Congress sought not only to protect
these funds but also to reduce administrative and financial burdens attendant to employee benefit plans.
Kennedy, 555 U.S. at 303.
Section 1144(a) of ERISA provides that the federal
law “shall supersede any and all State laws insofar
as they may now or hereafter relate to any employee
benefit plan” described therein. 29 U.S.C.A. § 1144(a).
Despite the potential breadth of section 1144(a), the
United States Supreme Court has held that the term
“relate to” as used therein is not without limits.
Easterday expounds that in Estate of Sauers, this Court
followed the high Court’s decision in Egelhoff v. Egelhoff, 532 U.S.
151 (2001). We discuss these cases infra.
11

App. 26
Gobeille, 136 S.Ct. at 943. Rather, whether a state law
“relates to” a qualified employee benefit plan depends
upon whether the state law impinges upon the objectives of ERISA, as well as its effect, if any, on ERISAqualified plans. Egelhoff, 532 U.S. at 147; In re Estate
of Sauers, 32 A.3d at 1250.
In Egelhoff, the husband died after divorce but before removing his ex-wife as the beneficiary of his life
insurance policy and pension plan. His estate sued
the ex-wife in state court, arguing that a Washington
state law nearly identical to section 6111.2 of our PEF
Code, discussed above, nullified her beneficiary status.
Egelhoff, 532 U.S. at 144-45. Although the state courts
roundly rejected the ex-spouse’s preemption argument,
the United States Supreme Court agreed with her. It
explained (as discussed above) that whether a state
law is preempted by ERISA depends on whether the
state law intrudes on ERISA’s core objectives and
the extent of any effect the state law has on ERISAgoverned plans. Id. at 147.
Applying this standard, the Supreme Court concluded that the state law at issue (the section 6111.2
cognate) related to ERISA plans for purposes of preemption because it required administrators to pay benefits to the beneficiaries chosen by state law rather
than to those identified in the plan documents. Id.
Thus, the state law ran contrary to various ERISA provisions, such as those requiring “that the fiduciary
shall administer the plan ‘in accordance with the
documents and instruments governing the plan,’ [by]
making payments to a ‘beneficiary’ who is ‘designated

App. 27
by a participant, or by the terms of the plan.’ ” Id. (quoting 29 U.S.C. §§ 1002(8), 1104(a)(1)(D)). In a similar
manner, the Supreme Court found another impermissible connection with ERISA plans, in that the law
thwarted the core objective of nationally uniform plan
administration scheme. “Uniformity is impossible,” the
Court reasoned, “if plans are subject to different legal
obligations in different states.” Id. at 148. For these
reasons, it found the state law preempted.12
The high Court reaffirmed the core objectives of
ERISA just a few years later in Kennedy v. Plan Administrator for DuPont Savings and Investment Plan,
555 U.S. 285 (2009). There, the wife waived her right to
the decedent’s savings and investment plan (“SIP”)
pursuant to the terms of their divorce decree. Although
the husband could have removed her as the named
beneficiary, he failed to do so before he died. Upon the
husband’s death, the plan administrator paid the balance of the SIP account to the wife in conformity with
the plan documents. His estate sued the plan administrator, arguing that the wife waived her right to the
SIP funds. Although initially successful in the trial
court, the Fifth Circuit reversed. The Supreme Court
affirmed, but for reasons other than those relied on by
the intermediate court.13 Citing ERISA’s requirements
12
In Estate of Sauers, this Court examined Egelhoff and concluded that section 6111.2 was preempted by ERISA. Estate of
Sauers, 32 A.3d 1241, 1257 (Pa. 2011). Egelhoff does not address
the issue presently before us concerning preemption of a common
law claim to proceeds post distribution.
13
The Fifth Circuit concluded that the wife’s waiver was an
impermissible alienation of her interest in the SIP proceeds, in

App. 28
that all plans be established and maintained by a
written instrument, and that plan administrators act
strictly in accordance with the terms of the plan as
written, the Supreme Court reiterated ERISA’s paramount goal of establishing a uniform administrative
scheme, with standardized procedures for the submission and processing of claims. Id. at 300-01 (discussing
29 U.S.C. §§ 1102(a)(1), 1102(b)(4), 1132(a)(1)(B)). Promoting “an uncomplicated rule” requiring adherence to
plan documents serves ERISA’s goals of “simple administration, avoiding double liability, and ensuring
that beneficiaries get what’s coming quickly, without
the folderol essential under less-certain rules.” Id. at
301 (quoting Fox Valley & Vicinity Constr. Workers Pension Fund v. Brown, 897 F.2d 275, 283 (C.A.7 1990)
(Easterbrook, J., dissenting)). Thus, the wife’s waiver
impacted administration of the SIP because it “was . . .
standing in the way of making payments simply by
identifying the beneficiary specified in plan documents[.]” Id. at 303. Accordingly, the Court concluded
that it was preempted and therefore ineffective. Id.
Notably for our purposes, the Court recognized the
limits of its decision and left open the question of
whether a party could seek to recover proceeds from a
named beneficiary under state law after distribution
by the plan administrator. Id. at 299 n.10. Only three
years later, the Third Circuit entertained this very
violation of ERISA’s anti-alienation provision. Kennedy, 555 U.S.
at 290. This provision is not at issue in the appeal presently before
us, nor was it determinative in the high Court’s ultimate disposition in Kennedy. See id. at 299-300.

App. 29
question. William and Adele Kensinger were married
when William designated Adele as the beneficiary of
his employer-sponsored 401(k) plan. Estate of Kensinger,
674 F.3d at 132. The parties eventually divorced, and
as part of their property settlement agreement, the
Kensingers mutually agreed to waive any rights to the
other’s retirement and deferred savings accounts, including the aforementioned 401(k). Id. at 132-33. William died nine months after the divorce proceedings
concluded, without having changed the beneficiary
designation for his 401(k) account. A dispute arose as
to who was entitled to the account’s proceeds, and William’s estate eventually filed an action against Adele
and the plan administrator, seeking a declaration as to
its rights to the account’s proceeds.14
Adele moved for summary judgment based on
Kennedy. Agreeing that it was bound by Kennedy, the
district court found that the plan administrator was
required to distribute the funds in 401(k) account to
Adele, but further concluded that the estate could not
attempt to recover the proceeds from her, as doing so
would violate ERISA’s objective of ensuring that “the
named beneficiaries actually receive the benefits[.]” Id.
at 134 (emphasis in the original).
The Third Circuit reversed. It disagreed with the
the district court’s conclusion that an objective of
ERISA is to ensure that the named beneficiary retains
Although originally filed in state court, the plan administrator removed the case to federal district court. It was later dismissed from the action by agreement of the parties. Estate of
Kensinger, 674 F.3d at 133, n.1.
14

App. 30
the benefits. Id. at 136-37. The Third Circuit explained
that contrary to the district court’s reading, Kennedy
emphasized two central underlying objectives as the
basis for its decision: (1) the establishment of uniform
and efficient plan administration, and (2) protection
against double liability for administrators. Id. at 135.
Neither of these concerns, it concluded, are implicated
in a dispute between Adele, the named beneficiary, and
the estate, because an action between the estate and
Adele “would in no way complicate . . . administration
of the plan.” Id. at 136.
It rebuffed the district court’s reliance on the
statement in Kennedy that ERISA ensures that “beneficiaries get what’s coming quickly” as support for
its conclusion that ERISA “aims to provide certainty
regarding the final distribution of ERISA benefits
to beneficiaries[,]” such that “the possibility of a postdistribution action against a beneficiary would . . . undermine this ‘core objective’ of the statute.” Id. To the
contrary, the Third Circuit reasoned, this statement
must be considered in the context in which it arose. Id.
at 136. Both Kennedy and the case upon which it relied,
Fox Valley, involved claims against plan administers [sic]
who had yet to distribute benefits. It found this distinction to be critical because “when read with that in
mind, the goal of ensuring that beneficiaries ‘get what’s
coming quickly’ ” is understood as referring to “the expeditious distribution of funds from plan administrators, not to some sort of rule providing continued
shelter from contractual liability to beneficiaries who
have already received plan proceeds.” Id. Thus, “to the

App. 31
extent that ERISA is concerned with the expeditious
payment of plan proceeds[,]” this concern extends only
to the prompt payment of benefits to the named beneficiary. Id. at 136-37. Accordingly, the Third Circuit
concluded, ERISA’s concerns extend only so far as ensuring that Adele receive benefits and cease to exist
after that point. Id. For that reason, William’s estate
could seek to recover the 401(k) account proceeds
through a state law claim, as such a claim does not implicate or undermine any of ERISA’s core objectives. Id.
at 137.
We agree with the Third Circuit.15 ERISA’s focus
is on the administration of employee benefit plans, not
on the benefits, per se. As this Court previously recognized,
ERISA does not foreclose state legislation and
regulation that manages only employee benefits; rather, ERISA solely governs the broader
notion of employee benefit plans. According to
the Supreme Court of the United States, an
“employee benefit plan” is characterized by
the “ongoing, predictable nature of [an] obligation therefore creating the need for an administrative scheme to process claims and
pay out benefits, whether those benefits are
received by beneficiaries in a lump sum or on
a periodic basis.” [Fort Halifax Packing Co. v.
Coyne, 482 U.S. 1,] 15 n. 9 [1987]. Contrarily,
We are not bound by the decisions of inferior federal courts
as to issues of preemption, but may look to them as persuasive
authority. Miller v. Se. Pennsylvania Transp. Auth., 103 A.3d
1225, 1236 (Pa. 2014).
15

App. 32
when a state statute does not require, establish, or regulate an ongoing payment program,
the concerns of ERISA are not implicated, as
generally only the employee benefits are at issue. Id.
Estate of Sauers, 32 A.3d at 1250-51.
Property settlement agreements are contracts and
as such are construed in accordance with the principles
of our Commonwealth’s contract law. Kripp v. Kripp,
849 A.2d 1159, 1163 (Pa. 2004). A common law contract
claim will be preempted only if it “relates to” a qualified employee benefit plan. Egelhoff, 532 U.S. at 146.
We determine whether such a relation exists by examining whether the state law impinges on the objectives
of ERISA and its effect on ERISA-qualified plans. Id.
at 147; In re Estate of Sauers, 32 A.3d at 1250. It is
clear that none of the articulated objectives, as discussed above, are implicated when an estate attempts
to recover benefits that have already been distributed
because at that juncture, the plan administrator is
no longer part of the equation. Once the plan administrator makes payment in accordance with the plan
documents, it satisfies ERISA’s goals of regulating employee benefit plans and the administration thereof,
protecting the plan administrator from double liability,
and ensuring that the named beneficiary receives her
benefits in a prompt manner. Kennedy, 555 U.S. at 301;
Kensinger, 674 F.3d at 136-37. There is no indication
that in drafting ERISA, Congress was concerned with
the named beneficiary’s right to retain the benefits. To
the contrary, this consideration is wholly beyond the

App. 33
scope of ERISA because it is beyond the scope of plan
administration. See Estate of Sauers, 32 A.3d at 125051. We therefore hold that section 1144(a) of ERISA
does not preempt a state law breach of contract claim
to recover funds that were paid pursuant to an ERISAqualified employee benefit plan.16
The Superior Court’s judgment is affirmed.17
Chief Justice Saylor and Justices Baer, Todd,
Dougherty and Mundy join the opinion.
Justice Wecht files a concurring and dissenting
opinion.

We join a growing number of states in arriving at this conclusion. See, e.g., In re Christie, 152 A.D.3d 765, 767 (N.Y. App.
Div. 2017); Walsh v. Montes, 388 P.3d 262, 266 (N.M. Ct. App.
2016); Hennig v. Didyk, 438 S.W.3d 177, 183-84 (Tex. App. 2014);
Appleton v. Alcorn, 728 S.E.2d 549, 552 (Ga. 2012); Sweebe v.
Sweebe, 712 N.W.2d 708, 712 (Mich. 2006).
17
Easterday expends significant effort arguing against the
lower courts’ rulings that the waiver contained in the Easterdays’
PSA controls. See Appellee’s Brief at 22-26 (arguing that the PSA
waiver provision does not control because Decedent did not
change the beneficiary designation and Decedent in fact wanted
Easterday to remain the beneficiary); Appellee’s Second Brief at
15-20 (same). This argument is beyond the scope of the issue we
accepted for review, which was limited to considering the question
of preemption. See In re Estate of Easterday, 184 A.3d 542 (Pa.
2018) (per curiam).
16

App. 34
J-A08021-17
2017 PA Super 315
IN RE: ESTATE
OF MICHAEL J.
EASTERDAY, DECEASED

IN THE SUPERIOR
COURT OF
PENNSYLVANIA

APPEAL OF: COLLEEN
A. EASTERDAY

No. 2911 EDA 2016

Appeal from the Order Entered March 22, 2016
In the Court of Common Pleas of Montgomery County
Orphans’ Court at No(s): 46-2014-X3615
*****

IN RE: ESTATE
OF MICHAEL J.
EASTERDAY, DECEASED

IN THE SUPERIOR
COURT OF
PENNSYLVANIA

APPEAL OF: MATTHEW
M. EASTERDAY

No. 2946 EDA 2016

Appeal from the Order Entered March 22, 2016
In the Court of Common Pleas of Montgomery County
Orphans’ Court at No(s): 46-2014-X3615
BEFORE: PANELLA, J., LAZARUS, J., and STEVENS,
P.J.E.*
OPINION BY LAZARUS, J.: FILED OCTOBER 03, 2017
These are cross-appeals from the order entered in
the Court of Common Pleas of Montgomery County,
Orphans’ Court Division, adjudicating the rights of the
parties with respect to pension and insurance benefits
* Former Justice specially assigned to the Superior Court.

App. 35
payable as a result of the death of Michael Easterday
(“Decedent”). Upon review, we affirm.
Decedent died intestate on September 21, 2014.
He was survived by two sons, Christopher and Matthew, a daughter, Amanda E. Easterday Melvin, and
his second wife, Colleen A. Easterday. Matthew was
granted letters of administration on the Decedent’s estate. Just over one year prior to the Decedent’s death,
on August 13, 2013, Colleen initiated divorce proceedings against the Decedent in Lancaster County. Colleen was represented in the divorce action by David R.
Dautrich, Esquire. Decedent did not retain counsel.
The parties executed a postnuptial agreement (“PNA”)
on December 5, 2013, wherein they agreed, inter alia,
to waive any rights in and to the pension and retirement plans of the other, including any right the parties
may have as a surviving spouse or beneficiary thereof.
The agreement provided that it was to remain in full
force and effect regardless of reconciliation, a change
in marital status or the entry of a final divorce decree,
absent modification or termination of the agreement
by the parties’ written mutual consent. The parties
never terminated or modified the agreement.
In November 2013, Attorney Dautrich’s office prepared an affidavit of consent to divorce for Decedent’s
signature and gave the document to Colleen to give to
Decedent to sign. Decedent signed the affidavit on November 30, 2013 and returned it to Colleen by hand.
Colleen retained the affidavit in her possession for a
period of time before returning it to her counsel for filing on or before January 14, 2014. Attorney Dautrich

App. 36
was aware that Decedent’s affidavit was dated more
than thirty days earlier. Nevertheless, he instructed
his staff to mail both parties’ affidavits of consent to
the Lancaster County Prothonotary for filing, which
was done on January 14, 2014. The affidavits were
time-stamped by the court on January 16, 2014. On
January 24, 2014, Colleen filed a praecipe for divorce
finalization and a praecipe to transmit the record. Decedent died before the decree was entered. At the time
of Decedent’s death, Colleen remained the named beneficiary of Decedent’s pension and life insurance policy.
Three days after Decedent’s death, Colleen withdrew
the divorce action.
On November 17, 2014, Matthew Easterday, as administrator of the Decedent’s estate (“Estate”), filed a
petition seeking to compel Colleen to preserve and
turn over to the estate the life insurance proceeds and
pension benefits she had received. The Estate argued
that: (1) the parties’ PNA controlled the disposition of
the pension proceeds and required that distribution be
made to the estate regardless of the beneficiary designation; and (2) Decedent’s designation of Colleen as
beneficiary of his insurance policy became ineffective
under 20 Pa.C.S.A. § 6111.2.
In her answer and new matter, Colleen asserted
that: (1) the PNA did not control the distribution of the
pension proceeds because the parties never changed
beneficiary designations; (2) section 6111.2 does not apply because the Decedent’s affidavit of consent was stale
and invalid; and (3) the parties were in the process of
reconciling prior to Decedent’s death and Decedent

App. 37
intended that Colleen should remain the beneficiary of
both his pension and insurance policies.
After a hearing held on October 20, 2015, and following the submission by the parties of memoranda of
law, the Honorable Stanley Ott issued an order granting the Estate’s petition in part and denying it in part.
Specifically, the court concluded that the Estate was
entitled to the Decedent’s pension benefits pursuant to
the PNA, but Colleen was entitled to the insurance
proceeds, which were not addressed in the PNA. Both
parties filed exceptions, which, after oral argument before the Orphans’ Court sitting en banc, were deemed
denied by operation of law pursuant to Pa.O.C.R.
7.1(f ). These timely consolidated appeals followed.
The Estate raises the following issues on appeal:
1. Whether the Orphans’ Court committed
an error of law by holding that the Superior
Court’s decision in Tosi v. Kizis, 8[5] A.3d 585
([Pa. Super.] 2014), appeal den’d, 626 Pa. 700,
97 A.3d 745, applies in the present case, and
that Tosi required the Orphans’ Court to consider the merits of the Estate’s [p]etition under the legal fiction that there were no divorce
proceedings pending at the time of Decedent’s
death, despite the factual reality that there
was a divorce action filed by Colleen A. Easterday against the Decedent and which was
pending in Lancaster County at the time of
the Decedent’s death.
2. Whether the Orphans’ Court committed
an error of law by not ruling that 20 Pa.C.S.

App. 38
§ 6111.2 applies to this case to invalidate Decedent’s designation of Colleen A. Easterday
as beneficiary of Decedent’s American General Life Insurance Policy because Decedent
died domiciled in Pennsylvania during the
course of divorce proceedings, no decree of divorce had been entered, but grounds for divorce had been established pursuant to 20
Pa.C.S.A. § 3323(g) prior to Decedent’s death.
Appellant’s Brief of Estate, at 6-7.
In her consolidated appeal, Colleen raises the following issue for our review:
Did the Decedent make a deliberate and conscious choice that his wife was to be the irrevocable beneficiary of his Fed-Ex pension plan
and that she was to receive those benefits
after his death, even though a post-nuptial
agreement contained a waiver signed by her
regarding the Fed-Ex ERISA pension?
Appellant’s Brief of Colleen Easterday, at 4.
We begin by noting our scope and standard of review of a decision of an Orphans’ Court. The findings
of a judge of the Orphans’ Court, sitting without a jury,
must be accorded the same weight and effect as the
verdict of a jury, and will not be reversed by an appellate court in the absence of an abuse of discretion or a
lack of evidentiary support. In re Estate of Talerico,
137 A.3d 577, 580-81 (Pa. Super. 2016), quoting In re
Jerome Markowitz Trust, 71 A.3d 289, 297-98 (Pa.
Super. 2013). An abuse of discretion is not merely an
error of judgment, but if in reaching a conclusion the

App. 39
law is overridden or misapplied, or the judgment exercised is manifestly unreasonable, or the result of
partiality, prejudice, bias or ill-will, as shown by the
evidence of record, discretion is abused. Id. When the
Orphans’ Court arrives at a legal conclusion based on
statutory interpretation, our standard of review is de
novo and our scope of review is plenary. Id., quoting
In re Estate of Fuller, 87 A.3d 330, 333 (Pa. Super.
2014) (citation omitted).
We begin with the claims raised by the Estate
challenging the lower court’s award of the life insurance
proceeds to Colleen. The Orphans’ Court concluded that,
because Colleen withdrew the divorce action after Decedent died, the proper course was to proceed as if the
action had never been filed and award the proceeds in
accordance with the policy’s beneficiary designation.
The court found the provision of the Probate, Estates
and Fiduciaries (“PEF”) Code regarding the effect of a
pending divorce on beneficiary designations, section
6111.2, to be inapplicable.1 The court concluded that
this result was compelled by this Court’s holding in
Tosi v. Kizis, 85 A.3d 585 (Pa. Super. 2014).2 The
1
Section 6111.2 provides that, where a domiciliary of the Commonwealth designates his spouse as beneficiary of a life insurance
policy and dies (1) during the course of divorce proceedings in
which (2) no decree of divorce has been entered and (3) grounds
have been established as provided in 23 Pa.C.S.A. § 3323(g), the
spousal designation becomes ineffective for all purposes and must
be construed as if the spouse or former spouse had predeceased
the individual. 20 Pa.C.S.A. § 6111.2.
2
In Tosi, Husband died during the pendency of divorce proceedings. At the time of Husband’s death, both he and Wife had
filed affidavits of consent, thus establishing grounds for divorce

App. 40
Estate argues that the Orphans’ Court erred in applying Tosi and, consequently, in failing to apply section
6111.2. The Estate asserts that the holding in Tosi is
a narrow one, limited to situations in which a party to
a divorce action files a discontinuance seeking to avoid
the application of equitable distribution rules after the
death of the other party. Because neither Michael Easterday nor his estate ever sought equitable distribution
under the Divorce Code, the Estate claims that this
matter is outside the scope of the holding in Tosi. Rather, the Estate asserts, the disposition of the insurance proceeds is governed by section 6111.2, the
application of which, it claims, is fixed as of the date of
a decedent’s death.
To the extent the decision of the Orphans’ Court in
this matter was grounded in the rationale of Tosi, it is
unsound. In Tosi, Husband died during the pendency
under section 3323. Four months after Husband’s death, Wife filed
a praecipe to discontinue the divorce action pursuant to Pa.R.C.P.
229. The trial court denied Husband’s estate’s petition to strike
the discontinuance. On appeal, the estate asserted that, once the
parties both filed affidavits of consent, section 3323(d.1) of the Divorce Code mandated that the parties’ economic claims be resolved pursuant to the Divorce Code and that the court erred in
allowing Wife to discontinue the action.
In affirming the trial court, this Court concluded that Wife’s
power to discontinue the action under Rule 229 was not preempted by section 3323(d.1). Rather, the Court found that “the
language of [section 3323(d.1)] merely provides that in the event
of [the] death of one of the parties in a divorce action, the action
may continue and the economic claims shall be determined under
equitable distribution principles rather than under the elective
share provisions of the [PEF] Code.” Tosi, 85 A.3d at 589 (emphasis added).

App. 41
of divorce proceedings. At the time of Husband’s death,
both he and Wife had filed affidavits of consent, thus
establishing grounds for divorce under section 3323.
Four months after Husband’s death, Wife filed a praecipe
to discontinue the divorce action pursuant to Pa.R.C.P.
229. The trial court denied Husband’s estate’s petition
to strike the discontinuance, and the estate appealed.
On appeal, the estate asserted that, once the parties
both filed affidavits of consent, section 3323(d.1) of the
Divorce Code mandated that the parties’ economic
claims be resolved pursuant to the Divorce Code and
that the court erred in allowing Wife to discontinue the
action.
In affirming the trial court, this Court concluded
that Wife’s power to discontinue the action under Rule
229 was not preempted by section 3323(d.1). Rather, the
Court found that “the language of [section 3323(d.1)]
merely provides that in the event of [the] death of one
of the parties in a divorce action, the action may continue and the economic claims shall be determined under equitable distribution principles rather than under
the elective share provisions of the [PEF] Code.” Tosi,
85 A.3d at 589 (emphasis added).
In deciding this matter, the Orphans’ Court concluded that, as Colleen had withdrawn the divorce action subsequent to Decedent’s death, the holding in
Tosi required him to proceed as though no divorce had
ever been filed, which resulted in Colleen being entitled to the insurance proceeds as named beneficiary.
Because the court proceeded under the fiction that the

App. 42
divorce action had never been filed, section 6111.2 did
not apply to invalidate the beneficiary designation.
However, prior to the court’s decision in this matter, on May 6, 2015, our Supreme Court adopted Rule
of Civil Procedure 1920.17, effective July 1, 2015. Rule
1920.17 provides, in relevant part, as follows:
(d) In the event one party dies during the
course of the divorce proceeding, no decree of
divorce has been entered and grounds for divorce have been established, neither the complaint nor economic claims can be withdrawn
except by the consent of the surviving spouse
and the personal representative of the decedent. If there is no agreement, the economic
claims shall be determined pursuant to the
Divorce Code[.]
Pa.R.C.P. 1920.17(d). The note to Rule 1920.17 specifically provides that “[t]o the extent that Tosi [ ] holds
that 23 Pa.C.S. 3323(d.1) does not prevent the plaintiff
in a divorce action from discontinuing the divorce action following the death of the defendant after grounds
for divorce have been established, it is superseded.” Pa.
R.C.P. 1920.17(d), note.3
In adopting Rule 1920.17, the Court signaled its
disapproval of the broad effect of Tosi, which effectively granted any surviving spouse the unilateral
power to determine whether the assets of the deceased
spouse would be distributed under the Divorce Code or
We note that neither the Orphans’ Court nor either of the
parties acknowledged the adoption or impact of Rule 1920.17.
3

App. 43
the PEF Code, based solely on the self-interest of the
surviving spouse, where grounds for divorce had been
established. New Rule 1920.17 addresses this inequity
by requiring that, where grounds have been established, a discontinuance may only be granted if the personal representative of the deceased spouse consents.
The Supreme Court superseded Tosi specifically
as it applied to section 3323(d.1) of the Divorce Code,
and did not address the possible application of its rationale to section 6111.2 of the PEF Code.4 However,
we believe that the Court’s adoption of Rule 1920.17
provides a clear indication that the Court would look
with similar disfavor upon an interpretation of section
6111.2 that would grant a surviving spouse/plaintiff
the power to negate the intent of the statute – to protect a divorcing spouse from inadvertently providing a
windfall to his or her surviving ex-spouse simply by
neglecting to change a beneficiary designation – by discontinuing the divorce action after grounds have been
established. Thus, we decline to apply Tosi to the instant matter and hold that the Orphans’ Court erred
by doing so.
Having concluded that Tosi is not dispositive,
we must determine whether section 6111.2 applies to
invalidate Decedent’s designation of Colleen as beneficiary of his insurance policy. To that end, the key inquiry in this matter becomes whether or not grounds
have, in fact, been established pursuant to 23 Pa.C.S.A.

4

Section 6111.2 was not at issue in Tosi.

App. 44
§ 3323(g), such that the disposition of the insurance
proceeds is determined under section 6111.2.
Section 3323(g) provides that where, as here, the
parties are proceeding under section 3301(c) of the Divorce Code – the “no fault” provision – grounds are established where both parties have filed affidavits of
consent. Pursuant to Pa.R.C.P. 1920.42(b), affidavits of
consent must be filed (1) ninety days or more after filing and service of the complaint and (2) within thirty
days of the date the consents are executed. In this case,
the Decedent’s affidavit was filed more than thirty
days after it was executed, in violation of Rule 1920.42.
As a result, Colleen asserts, the Decedent’s affidavit
was invalid5 and grounds were never established under section 3323(g). Accordingly, she argues, section
6111.2 does not apply.
The Estate, on the other hand, argues that, while
strict compliance with the time limitations under Rule
1920.42(b) may be necessary to obtain a final decree of
divorce, “section 3323(g), to which [s]ection 6111.2 refers, clearly contains no such time limitation.” Appellant’s Brief of Estate, at 31. The Estate asserts that
neither section 3323(g) nor section 6111.2 imposes a
time limit on the filing of the affidavits, nor do they
explicitly incorporate the limits set forth in Rule
1920.42(b). As such, Decedent’s otherwise untimely affidavit was sufficient, under the facts of this case, to
The Orphans’ Court found the issue of the validity of Decedent’s affidavit of consent to be a “red herring” in light of its determination that Tosi was dispositive and, thus, did not make a
determination on the issue.
5

App. 45
establish grounds and require the application of section 6111.2.
Alternatively, assuming, arguendo, that the thirtyday limitation applies, the Estate asserts that this
Court “has viewed untimely affidavits as valid to establish grounds for divorce under section 3323(g) . . .
for various purposes, including a request to bifurcate
a divorce claim from economic claims.” Id. at 33, citing
Bonawits v. Bonawits, 907 A.2d 611 (Pa. Super. 2006).
Accordingly, strict compliance with the thirty-day time
limit is not necessary to establish grounds for divorce
under sections 3323 and 6111.2, and “a minor technical
violation of a procedural rule should not invalidate an
affidavit of consent filed by a party.” Id. at 34.
Finally, the Estate argues that Colleen is judicially
estopped from arguing that Decedent’s affidavit was
invalid because it was “disingenuous and directly contrary to the position she took in the [d]ivorce [a]ction.”
Id. at 35. Specifically, the Estate points to Colleen’s
praecipe to transmit, wherein she requested the divorce court to enter a decree of divorce based, in part,
on the fact that both parties had filed their affidavits
of consent. Only now that it is in her interest that the
affidavit be deemed invalid, the Estate asserts, does
Colleen argue the opposite position.
We first address the Estate’s contention that the
time limitation for the filing of affidavits of compliance
as set forth in Rule 1920.42 is inapplicable and, thus,
Decedent’s affidavit, although untimely under the

App. 46
rule, was sufficient to establish grounds under section
3323(g). For the following reasons, we disagree.
The legislature has declared that “[t]he family is
the basic unit in society and the protection and preservation of the family is of paramount public concern.”
23 Pa.C.S.A. § 3102(a). In light of the various policy
considerations favoring the protection of the family
unit, the Rules of Civil Procedure preclude the entry
of default judgments in the divorce context. See Pa.
R.C.P. 1920.41. In keeping with these policy considerations and the seriousness with which the dissolution of
marriage is to be treated, Rule 1920.42(b) requires that
the parties’ affidavits of consent demonstrate a present
intent to finalize a divorce by mandating that they be
executed within thirty days of filing. Under the rule,
stale affidavits may not form the basis for the entry of
a final decree.
Where one party dies during the pendency of a divorce action, the establishment of grounds takes on
added significance, as it will be the determinative factor in whether the parties’ economic issues are settled
under the Divorce Code or the PEF Code. In effect, section 3323(d.1) treats the establishment of grounds as
the functional equivalent to the entry of a final decree,
where the death of one party renders such finality impossible.6 Given the added significance the establishment
Pennsylvania courts have long held that an action in divorce abates upon the death of either party and the death of a
party prior to the entry of a final decree precludes the finalization
of a divorce. See Taper v. Taper, 939 A.2d 969, 973 (Pa. Super.
2007) (no statutory authority allows for entry of posthumous
6

App. 47
of grounds acquires under such circumstances, it is
reasonable to conclude that the legislature intended
to require compliance with the same procedural requirements precedent to the entry of a divorce decree.
Consequently, we conclude that a “stale” affidavit of
consent is insufficient to establish grounds under section 3323(g).
The Estate also argues that, even if the Rule
1920.42 time limit applies, we should not require strict
compliance with it, because doing so would elevate
form over substance. While, under other facts, this
argument might be persuasive, under the present circumstances, we find that waiving the requirement
decree of divorce). However, in 2005, the legislature amended section 3323 of the Divorce Code to provide for the continuation of
the action for economic purposes where one party dies prior to the
entry of a final decree, but after grounds have been established.
Under those circumstances, section 3323(d.1) directs a determination of the parties’ economic rights under principles of equitable distribution rather than under the provisions of the PEF Code.
See 23 Pa.C.S.A. § 3323(d.1). Under the prior version of the statute, the death of one spouse prior to the entry of a final decree
resulted in the abatement of the action, leaving the surviving
spouse to exercise his or her elective rights under the PEF Code.
The 2005 amendment demonstrates a recognition on the part of
the legislature that the prior state of affairs “ma[de] it difficult to
advise clients on whether to bifurcate divorce proceedings, because of the difficulties often involved in predicting whether equitable distribution would provide a more favorable result than the
elective share procedure.” Id., cmt. In enacting section 3323(d.1),
the legislature provided certainty, as well as a mechanism to effectuate the parties’ presumed intent which, but for the death of
one of them, would have resulted in the entry of a final decree and
a determination of their economic rights through equitable distribution.

App. 48
would not effectuate justice where the Decedent had
an opportunity to rectify the untimely affidavit but, for
whatever reason, chose not to do so. The following
facts, stipulated to by the parties, are relevant to this
determination.
Diane Carroll, an employee at the law firm of Colleen’s attorney, was contacted by judicial staff in the
Lancaster County Court of Common Pleas, who advised her that the Decedent’s affidavit of consent was
stale and that he was required to sign and submit a
new affidavit. Thereafter, on February 6, 2014, Carroll
prepared and mailed a letter to the Decedent, explaining that his original affidavit had been rejected as untimely and requesting that he sign and return a new
affidavit, which Carroll enclosed for his signature. The
day after she mailed that letter, Carroll spoke to the
Decedent, explained the situation and told him that he
would have to sign a new affidavit of consent. In the
ensuing 7½ months leading up to the Decedent’s death
on September 21, 2014, Decedent failed to file the new
affidavit or return it to Colleen’s counsel for filing.
From these stipulated facts, it is far from clear
that, at the time of his death, Decedent possessed a
present intent to divorce, such that we should excuse
the staleness of his affidavit of consent and conclude
that grounds were established. If anything, Decedent’s
inaction, after having explicitly been advised of the
necessity to re-execute his invalid affidavit of consent,
evidences an intent to delay the proceedings, if not terminate them. Accordingly, we decline the Estate’s invitation to overlook the affidavit’s untimeliness.

App. 49
Finally, the Estate argues that Colleen is judicially
estopped from asserting the invalidity of Decedent’s affidavit because she previously took a contrary position
in the divorce action. Generally, under the doctrine of
judicial estoppel, “a party to an action is estopped from
assuming a position inconsistent with his or her assertion in a previous action, if his or her contention was
successfully maintained.” In re Adoption of S.A.J.,
838 A.2d 616, 620 (Pa. 2003) (citation omitted). This
argument may be quickly dispensed with by noting
that, although Colleen’s counsel did file with the prothonotary a praecipe to transmit the record on January
24, 2014, the document candidly noted that Decedent’s
affidavit had been executed on November 30, 2013,
more than thirty days earlier. When this fact was
brought to counsel’s attention by the court, counsel
made no argument that the affidavit’s untimeliness
should be excused. Rather, counsel prepared a new affidavit for Decedent’s signature, mailed it to him, and
contacted him to request that he re-execute the document. On these facts, it is readily apparent that the
doctrine of judicial estoppel is inapplicable, most notably because, even assuming Colleen could be deemed
to have previously taken a contrary position as to the
affidavit’s validity, that contention was not “successfully maintained.”
Based on the foregoing, we conclude that grounds
for divorce were not established pursuant to section
3323(g). Consequently, section 6111.2 does not apply to
invalidate Decedent’s beneficiary designation and the
Orphans’ Court did not err in awarding the proceeds of

App. 50
the Decedent’s insurance policy to Colleen as the
named beneficiary.7
We now turn to Colleen’s sole appellate claim. The
Orphans’ Court ruled that the PNA entered into by the
parties barred Colleen from retaining Decedent’s benefits under his FedEx pension plan and awarded them
to the Estate. Colleen asserts that, despite the terms of
the PNA, Decedent made a deliberate and conscious
choice to give his Fed-Ex pension to Colleen after he
died by making an irrevocable election that Colleen
was to be the designated survivor beneficiary. Colleen
cites the fact that she and the Decedent “remained in
close contact, and that she assisted him with routine
activities of daily living and was his constant and sole
caretaker, up until the day that she found him dead[.]”
Appellant’s Brief of Colleen Easterday, at 6-7. Finally,
Colleen asserts that the Employee Retirement Income
Security Act (“ERISA”) preempts Pennsylvania state
law, specifically section 6111.2 of the PEF Code, as well
as the terms of the parties’ PNA. Thus, she argues, she
is entitled to retain the pension benefits.
In response, the Estate asserts that the PNA –
which was executed after the Decedent signed the pension beneficiary designation – clearly and unambiguously sets forth the parties’ waiver of their rights to each
other’s pension benefits and that a written modification
Although our analysis differs from that employed by the
Orphans’ Court in reaching its decision, we may affirm the lower
court’s ruling on any basis. See Blumenstock v. Gibson, 811
A.2d 1029, 1033 (Pa. Super. 2002) (appellate court not limited by
trial court’s rationale and may affirm on any basis).
7

App. 51
to the contrary was never executed by the parties.
Moreover, the Estate asserts that the Decedent’s alleged intent to “gift” to Colleen his benefits is irrelevant, as Colleen affirmatively waived her right to
retain the benefits, regardless of whether or not Decedent wanted her to have them. Furthermore, the Estate argues that any alleged reconciliation between the
parties is similarly irrelevant, as the PNA specifically
provides that it remains in full force and effect despite
any reconciliation between the parties. Finally, while
conceding that, under ERISA, the Decedent’s plan administrators are precluded from disbursing his pension benefits to anyone other than Colleen as named
beneficiary, the Estate asserts that ERISA does not invalidate or preempt Colleen’s state law waiver of her
right to retain the pension proceeds once they are distributed to her.
We begin our analysis by noting that a property
settlement agreement is subject to the law governing
contracts, and is to be reviewed as any other contract.
Mazurek v. Russell, 96 A.3d 372, 378 (Pa. Super.
2014). Because contract interpretation is a question of
law, our standard of review is de novo and our scope of
our review is plenary. Id. When a contract is free from
ambiguity, the court must interpret the contract as
written. Id. Only where the contract terms are ambiguous may the court receive extrinsic evidence to resolve the ambiguity. Id.
Under Pennsylvania law, spouses may waive their
rights to each other’s pension benefits via a property
settlement agreement, where such waiver is specific.

App. 52
Layne v. Layne, 659 A.2d 1048 (Pa. Super. 1995). In
the instant matter, the parties’ agreement provides as
follows:
11. PENSIONS, 401(K) and IRA: Husband
and Wife shall each retain 100% of their respective stocks, pensions, retirement benefits,
profit sharing plans, deferred compensation
plans, etc. and shall execute whatever documents necessary to effectuate this agreement.
Post Nuptial Agreement, 12/5/13, at ¶ 11.
1. Husband and Wife agree that any and
all Pension, Profit Sharing or Deferred Compensation Plan of which Husband is a Participant, shall remain the sole property of
Husband.
...
5A. Wife hereby [w]aives any joint or survivor annuity benefits[.]
Id. at Exhibit “B” ¶¶ 1 & 5A.
The language of the parties’ agreement was clear
and unequivocal regarding Colleen’s waiver of her
rights to Decedent’s pension. In fact, Colleen does not
dispute that, in executing the PNA, she effected a
waiver of those rights. See Appellant’s Brief of Colleen
Easterday, at 10 (“This is true even though [Decedent’s] wife, Colleen Easterday, signed a waiver giving
up any right that she may have had in his pension.”).
Because the PNA is clear and unambiguous on its face,
extrinsic evidence is inadmissible. Accordingly, Colleen’s

App. 53
attempt to alter the terms of the written agreement
with extrinsic evidence regarding Decedent’s “actual
intent” and the parties’ alleged reconciliation must
fail.8
Colleen’s argument that her state law waiver is
superseded by ERISA is similarly meritless. In support
of this claim, Colleen relies on the decision of the
United States Supreme Court in Egelhoff v. Egelhoff
ex rel. Breiner, 532 U.S. 141 (2001). There, the Court
held that statutes, such as section 6111.2 of the PEF
Code, that provide for automatic revocation, upon divorce, of any designation of a spouse as beneficiary of
non-probate assets was preempted, as they applied to
plans governed by ERISA, because such statutes directly conflict with the ERISA requirement that plans
be administered, and benefits be paid, in accordance
with plan documents. Colleen’s reliance is misplaced
and her argument meritless.
In enacting ERISA, one of Congress’ chief policy
goals was to ensure national uniformity, certainty, and
efficiency in the administration and distribution of covered benefit plans. See id. (principal goal of ERISA to
enable employers to establish uniform administrative
In any event, the Agreement clearly and unambiguously
states that it is to remain in effect regardless of any reconciliation
by the parties. See Post Nuptial Agreement, 12/5/13, at ¶ 1 (“[I]t
is the intent of the parties that any cohabitation or reconciliation
of the parties shall not render this Agreement null and void, but
rather, this Agreement shall remain in full force and effect until
specifically modified/revoked by subsequent addendum or agreement.”). The parties never modified or revoked the PNA.
8

App. 54
scheme, providing set of standard procedures to guide
processing of claims and disbursement of benefits).
Thus, individual state statutes are preempted to the
extent they conflict with ERISA’s requirement that
plans be administered, and benefits be paid, in accordance with plan documents.
In 2009, on facts similar to the matter sub judice,
the Supreme Court decided Kennedy v. Plan Adm’r
for DuPont Sav. & Inv. Plan, 555 U.S. 285 (2009).
There, a participant in an ERISA pension plan designated his wife as his sole beneficiary. The couple subsequently divorced, and the wife waived her interest in
her husband’s pension plan. However, the husband
died without amending the pension plan documents to
replace his ex-wife as the designated beneficiary. The
husband’s estate claimed a right to the plan proceeds,
citing the ex-wife’s waiver. The plan administrator,
however, relied on the husband’s designation form and
paid the funds to the ex-wife. The husband’s estate
then sued the plan administrator to recover the benefits. The Supreme Court held that ERISA precluded
the plan administrator from distributing the benefits
to anyone but the named beneficiary, regardless of the
existence of a valid waiver.
The Court left open, however, the question of
whether the estate could recover the benefits from the
ex-wife after she received them from the plan administrator. This question was subsequently answered in
the affirmative by the United States Court of Appeals
for the Third Circuit in Estate of Kensinger v. URL
Pharma, 674 F.3d 131 (3d Cir. 2012), in which the

App. 55
Court held, under facts nearly identical to Kennedy,
that ERISA does not bar an estate from attempting to
recover pension funds distributed to an ex-wife who
had executed a waiver of rights to those funds.
Similarly, here, ERISA presents no bar to the Estate’s recovery of pension funds distributed to Colleen.
Colleen’s waiver was clear and unequivocal and is
binding. The Estate is entitled, under principles of
state contract law, to enforce the bargain entered into
between Colleen and the Decedent. Accordingly, the
Orphans’ Court did not err in ordering that Colleen
turn over to the Estate all sums received to date as
beneficiary of Decedent’s FedEx pension plan, as well
as all remaining proceeds thereof that she is entitled
to receive under the plan documents.
Order affirmed.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 10/3/2017

App. 56
IN THE COURT OF COMMON PLEAS OF
MONTGOMERY COUNTY, PENNSYLVANIA
ORPHANS’ COURT DIVISION
NO. 2014-X3615
*

*

*

*

*

ESTATE OF MICHAEL J. EASTERDAY,
DECEASED
*

*

*

*

*

MEMORANDUM OPINION AND ORDER
OTT, S.J.

March 22, 2016

Michael J. Easterday died intestate on September
21, 2014. His son, Matthew M. Easterday (hereinafter
“the petitioner”) was appointed administrator of his estate. The decedent was also survived by another son,
Christopher, a daughter, Amanda E. Easterday Melvin,
and his second wife, Colleen A. Easterday (hereinafter
“the respondent.”) Counsel for the petitioner filed two
petitions – one styled as an “emergency petition” on
November 14, 2014 and the other on November 17,
2014 – raising the same issues1. The latter petition set
forth the following uncontested facts. The respondent
initiated divorce proceedings against the decedent in
Lancaster County on August 13, 2013, and the parties
executed a postnuptial agreement on December 5,
2013, wherein they agreed, inter alia, to waive any
rights in and to the pension and retirement plan
Because the substance of the first petition was subsumed
in the second, we refer herein only to the second for simplicity’s
sake.
1

App. 57
benefits of the other, including any right the parties
may have as a surviving spouse or beneficiary thereof.
The agreement provided it was to remain in full force
and effect regardless of reconciliation, a change in marital status or the entry of a final divorce decree, absent
a termination by the parties’ written mutual consent.
The parties filed affidavits pursuant to Section 3301 of
the Divorce Code, consenting to the entry of a divorce
decree on January 24, 2014. On the same day, the respondent also filed a copy of the parties’ agreement and
a praecipe to transmit the record to a Family Court
judge. The decedent died before the decree was entered.
The instant petition seeks to compel the respondent to preserve and turn over certain personal property
and life insurance and pension/retirement benefits alleged to be in her possession.
The respondent’s answer and new matter to the
petition alleged that the parties’ divorce was inactive;
that they were in the process of reconciling at the time
of the decedent’s death; that their postnuptial agreement did not waive any rights because the parties
never changed beneficiary designations; that the decedent’s affidavit of consent was invalid under Pa R.C.P.
1920.42(b)(2) because it was not filed within 30 days of
its execution; that the decedent did not file a second,
valid consent form because the couple had reconciled;
that the respondent was entitled to death benefits and
certain items of the decedent’s personalty; and that the
Lancaster County divorce complaint was withdrawn

App. 58
on September 24, 2014, and marked “closed” on the
Court docket.
The petitioner’s reply to the respondent’s new
matter denied, inter alia, that there was any reconciliation between the couple and that same would have
any effect on the parties’ rights and obligations under
their postnuptial agreement.
After the pleadings were closed, there was a
lengthy period of discovery. The matter proceeded to
hearing on October 20, 2015, at which time the following evidence was produced. At the outset, counsel
agreed to the admission of a 61-paragraph stipulation
of facts. (Exh P-1.) After counsel for the petitioner
asked for and received the Court’s agreement to take
judicial notice of the admissions in the respondent’s
pleading, the petitioner rested.
The respondent was then called to the stand. She
testified that she and the decedent were married for
almost ten years at the time of his death. She stated
they were living together in June of 2013 in Terre Hill,
Pennsylvania, in the house she owned prior to their
marriage. She stated the decedent was working as a
security guard and his job required that he be away
from home at times. In June of 2013, the decedent entered an alcohol treatment center for a 28-day stay. He
returned to the Terre Hill house thereafter. He continued to drink. The witness testified that, on July 12,
2013, she and the decedent, who had been drinking,
had an argument and he threatened to kill himself in
front of her. (N.T. 23.) She testified she ran from the

App. 59
house, left in her car and called the police. The decedent was taken to the hospital and then to another
treatment center. After he left the treatment center, he
stayed at his sister’s house for approximately one
month. He went from his sister’s home to a job in Hazleton, Pennsylvania. The witness testified she and the
decedent stayed in touch almost daily during his time
in Hazleton through phone calls, emails and text messages, (N.T. 27-28.) The decedent went from Hazelton
to North Wales, Pennsylvania, and then took an apartment in Hatfield, Pennsylvania. The witness identified
a binder containing 500+ pages of copies of snapshots
of the parties’ text messages taken from the decedent’s
cell phone between March 2, 2014, and September 21,
2014, (Exh R-1.) The Court admitted the exhibit conditionally, pending a determination as to the relevance of
the evidence proferred. (N.T. 37.)
The witness testified that she filed for divorce in
August of 2013 but stayed in contact with the decedent
on a daily basis. She suggested she initiated the divorce to “make him . . . wake up so he would understand he was destroying his life and everything that he
said he loved and cared for.” (N.T. 40.) She stated further: “I wanted Michael to get healthy. I was desperate.
I took a drastic action. I thought I had nothing else
left.” (N.T. 41.) She identified a bracelet the decedent
gave her for Mothers’ Day in 2014. She stated Michael
wore his wedding ring until he died. She stated she
never wanted a divorce, (N.T. 47.)
The respondent was then cross examined by counsel for the petitioner. She stated she was represented

App. 60
in the divorce proceedings by attorney Dautrich and
the decedent was unrepresented. She acknowledged
that, after the decedent’s “stale” affidavit was returned
to her counsel, her attorney sent him a second form to
execute. (N.T. 51.) She agreed that she and the decedent did not live together or file any joint tax returns
after the incident when he threatened to kill himself.
(N.T. 52-53.) When asked why she signed the affidavit
of consent if she did not want a divorce, she stated:
I was following through. You don’t do something when you’re trying to enact [sic] a specific reaction. If I said, “Michael, oh well, hey,
don’t worry about it, I don’t want a divorce
anyway, I just want you to quit drinking,”
what do you think would have happened? I
did what I thought was best for him and the
situation. . . . Yes, I signed those papers, and,
yes he did, but the purpose was not for a divorce.
(N.T. 55.)
During redirect by her counsel, the respondent
identified an email from the decedent to her in September of 2013 which read, in part: “I don’t know anymore
[sic] how to tell you or beg you that I want you as part
if [sic] my life! What do I need to do! And I lied about
my pension! I could’ve taken you off but I won’t because I love you? And I’m losing about $200.00 a month
by keeping you on but u don’t care!” (Exh. R-5.) She
identified a second email to her dated May 4, 2014, in
which the decedent said “The only reason we remain
husband and wife is because I didn’t want a divorce

App. 61
and didn’t submit the paper work in time. I was hopeful we could work things out.” (Exh. R-6.) In another
email to the respondent dated February 7, 2014, the
decedent indicated he wanted her to receive the proceeds from his pension and life insurance policy. (Exh.
R-7.)
DISCUSSION
The issue of whether or not grounds for the parties’ divorce were established (in view of the untimely
filing of the decedent’s affidavit of consent) is a red herring in this matter because of the holding in Tozi v. Kizis, 85 A.3d 585 (Pa. Super. 2014), appeal den’d, 626 Pa.
700, 97 A.3d 745 (Table 2014). There, the wife/plaintiff
in a divorce action filed a praecipe to discontinue the
case several months after the husband/defendant died.
The administrator of the personal representative’s estate sought to strike the discontinuance. The trial
court looked at Pa. R.C.P. 229 and Section 3323(d.1) of
the Divorce Code, The rule provides:
(a) A discontinuance shall be the exclusive
method of voluntary termination of an action,
in whole or in part, by the plaintiff before commencement of the trial.
*

*

*

(c) The court, upon petition and after notice,
may strike off a discontinuance in order to
protect the rights of any party from unreasonable inconvenience, vexation, harassment, expense or prejudice.

App. 62
The statute provides:
[i]n the event one party dies during the course
of divorce proceedings, no decree of divorce
has been entered and grounds have been established as provided in subsection (g), the
parties’ economic rights and obligations arising under the marriage shall be determined
under this part rather than under Title 20 (relating to decedents, estates and fiduciaries).
In Tozi, the decedent’s personal representative argued
that the statute mandated that the divorce continue.
The trial court held that the wife’s power to discontinue the divorce under the rule trumped the statutory
provision that seemingly would prevent such an action. On appeal, the Superior Court found no abuse of
discretion by the trial court, holding in essence that,
despite the apparently mandatory language in Section
3323(d.1) – rights and obligations “shall be determined
under the Divorce Code” – the plaintiff had the choice
of whether or not to continue with the divorce. The Superior Court noted that, in the trial court proceeding,
counsel for the personal representative did not offer
any evidence of the factors set forth in Pa. R.C.P. 229(c)
as possible grounds for striking a discontinuance (“unreasonable inconvenience, vexation, harassment, expense or prejudice”) because he was so certain that
Section 3323(d.1) would apply2. In the instant matter,
there is nothing in the record regarding an effort to
While several legal blogs and websites have questioned the
soundness of the Superior Court’s reasoning, we are, of course,
constrained to follow its dictate.
2

App. 63
strike the discontinuance in Chester County. Therefore, it appears our only course is to proceed as if there
never was a divorce action filed.
Having concluded that we are bound by the Superior Court’s holding in Tozi, there is no need to analyze
the provisions of the PEF Code governing the effect of
a pending divorce on conveyances3 and beneficiary designations.4
Section 6111.1 (Modification by Divorce or Pending Divorce) provides:
Any provision in a conveyance which was revocable by
a conveyor at the time of the conveyor’s death and
which was to take effect at or after the conveyor’s death
in favor of or relating to the conveyor’s spouse shall become ineffective for all purposes unless it appears in
the governing instrument that the provision was intended to survive a divorce, if the conveyor.”
(1) is divorced from such spouse after making the conveyance; or
(2) dies domiciled in this Commonwealth during the
course of divorce proceedings, no decree of divorce has
been entered pursuant to 23 Pa. C.S. § 3323 (relating
to decree of court) and grounds have been established
as provided in 23 Pa. C.S. § 3323(g).
4
Section 6111.2 (Effect of Divorce or Pending Divorce on
Designation of Beneficiaries) provides:
(a) Applicability. – This section is applicable if an individual:
(1) is domiciled in this Commonwealth;
(2) designates the individual’s spouse as beneficiary
of the individual’s life insurance policy, annuity contract, pension or profit-sharing plan or other contractual arrangement providing for payments to the
spouse; and
3

App. 64

(3) either: (i) at the time of the individual’s death is
divorced from the spouse; or (ii) dies during the course
of divorce proceedings, no decree of divorce has been
entered pursuant to 23 Pa. C.S. §3323 (relating to decree of court) and grounds have been established as
provided in 23 Pa. C.S. § 3323(g).
(b) General rule. – Any designation described in subsection (a)(2) in favor of the individual’s spouse or former spouse that was revocable by the individual at the
individual’s death shall become ineffective for all purposes and shall be construed as if the spouse or former
spouse had predeceased the individual, unless it appears the designation was intended to survive the divorce based on:
(1) the wording of the designation;
(2) a court order;
(3) a written contract between the individual and the
spouse or former spouse; or
(4) a designation of a former spouse as a beneficiary
after the divorce decree has been issued.
(c) Liability,—
(1) Unless restrained by court order, no insurance
company, pension or profit-sharing plan trustee or
other obligor shall be liable for making payments to a
spouse or former spouse which would have been proper
in the absence of this section.
(2) Any spouse or former spouse to whom payment is
made shall be answerable to anyone prejudiced by the
payment.
(c) Liability.—
(1) Unless restrained by court order, no insurance
company, pension or profit-sharing plan trustee or
other obligor shall be liable for making payments to a
spouse or former spouse which would have been proper
in the absence of this section.

App. 65
There remains only the issue of the parties’ post
nuptial agreement. As noted above, the agreement was
to remain in effect even if a final decree in divorce was
not entered. The agreement, in paragraph 11, specified
that the parties’ would “retain 100% of their respective
stock, pension, retirement benefits, profit sharing
plans, deferred compensation plans, etc.” The agreement is silent as to its effect on any insurance policy
beneficiary designations. This leads us to the Solomonlike resolution that the respondent has no right to or
interest in the decedent’s pension, however, she is the
proper beneficiary of the decedent’s life insurance policy. In light of the foregoing, the following Order is appropriate.
ORDER
AND NOW, this 22nd day of March, 2016, after
hearing and consideration of memoranda of counsel,
the petition filed on behalf of Matthew M. Easterday is
GRANTED in part and DENIED in part. The respondent, Colleen Easterday, is hereby DIRECTED to turn
over to the petitioner all sums she has received to date
as beneficiary of the decedent’s FedEx Corporation
Employees’ Pension Plan pension plan [sic]; and the
petitioner is authorized to receive the balance due on
the Fed Ex pension for administration in accordance
with the laws of intestate succession. The petitioner’s
(2) Any spouse or former spouse to whom payment is
made shall be answerable to anyone prejudiced by the
payment.

App. 66
request that the respondent turnover of [sic] the proceeds of American General Life Insurance Company
Contract Number YMD0016824 is DENIED.
Exceptions to this order may be filed within
twenty (20) days from the entry hereof. An appeal from
this otrder [sic] may be taken to the appropriate appellate court within thirty (30) days from the entry hereof.
See Pa. O.C. Rule 7.1, as amended and Pa. R.A.P. 902
and 903.
BY THE COURT:
/s/ [Illegible]
Copies of the above
mailed 3/22/16 to:
Robert J. Dougher, Esquire, for the petitioner
Michael Righi, Esquire, for the petitioner
David R, Dautrich, Esquire, for the respondent
Michael Dautrich, Esquire, for the respondent
/s/ [Illegible]

S.J.

